No. 20-5904
IN THE

Supreme Court of the United States
_________
TARAHRICK TERRY,
Petitioner,
v.
UNITED STATES,
Respondent.
CERTIFICATE OF SERVICE
I, Zachary C. Schauf, hereby certify that I am a member of the Bar of this Court,
and that I have this 19th day of February 2021, caused three copies of the Brief of
Senators Richard J. Durbin, Charles E. Grassley, Cory A. Booker, and Mike Lee as
Amici Curiae in support of Petitioner to be served via overnight mail and an electronic
version of the document to be transmitted via the Court’s electronic filing system to:
Andrew Lee Adler
Federal Public Defender’s Office
One East Broward Blvd.
Suite 1100
Fort Lauderdale, FL 33301
(954) 356-7436
andrew_adler@fd.org

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Tarahrick Terry

Counsel for United States

/s/ Zachary C. Schauf
Zachary C. Schauf

